LAW OFFICES OF JOSEPH A. LAVIGNE
31700 WEST THIRTEEN MILE ROAD, SUITE 96
FARMINGTON HILLS, MICHIGAN 48334
TELEPHONE: (248) 539-3144
FACSIMILE: (248) 539-3166
WWW.LAVIGNELAWOFFICES.COM
WRITER’S DIRECT EMAIL: JOE@LAVIGNELAWOFFICES.COM

JOSEPH A. LAVIGNE
JOANNE E. PRAY

OF COUNSEL:
JEFFREY A. BUEHNER

12 November 2020
Via E-Filing only
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Michigan v Mathews, Case no. 20-546

Dear Mr. Harris:
Pursuant to Rule 30.4, I am writing to respectfully request an extension of
time in which to file Respondent’s brief in opposition to the petition for a writ of
certiorari. The brief is currently due on 25 November 2020, and I am asking that
the date be reset to 25 January 2021.
The reasons for this request include my competing professional obligations,
which I would be happy to further itemize should you require further details. In
addition, on a personal note, yesterday my daughter was placed in Covid-19
protocol for online schooling under quarantine, and I anticipate this will cause
additional complications with my schedule and availability to attend to my other
responsibilities.
Based on the foregoing, and the coming holidays, I am respectfully asking for
a sixty day extension. Petitioner availed itself of the Court’s March 19, 2020 Order
by using an additional 41 days in which to file their petition for a writ of certiorari.
I have consulted with counsel for the Petitioner, who has no objection to this
request.

Hon. Scott S. Harris
Re: Michigan v Mathews
12 November 2020
Page two

Thank you in advance for your time and consideration.
Sincerely,
LAW OFFICES OF JOSEPH A. LAVIGNE

Joseph A. Lavigne
cc:

Ms. Jessica R. Cooper, Esq. (via email: cooperj@oakgov.com)
Mr. Thomas R. Grden, Esq. (via email: grdent@oakgov.com)
Mr. Matthew A. Fillmore, Esq. (via email: fillmorem@oakgov.com)
Ms. Laricca S. Mathews (via mail)

